No. 21-132

3n tfje Supreme Court of tfje Untteti States;

Robert Pilchman,
Petitioner,
v.
National Labor Relations Board, ET AL.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
FOR THE SECOND CIRCUIT

MEMORANDUM AND MOTION FOR PETITIONER FOR CORRECTIVE ACTION

Robert Pilchman
Pro Se
3030 Ocean Avenue, Apt 3F
Brooklyn, New York 11235
(646) 318-6466
r_pilchman@m sn. com

RECEIVED
OCT IS 2021

1

Dear Justices of the Supreme Court of the United States:
SUBJECT: DETRIMENTAL PERFORMANCE OF THE OFFICE OF THE CLERK
AND MY REQUEST FOR CORRECTIVE ACTION.
I received a letter (dated September 28, 2021) addressed to me from Donald Baker
(Office of the Clerk) that states
“Your supplemental brief received September 20, 2021, and is herewith
returned for the following reason:(s).
By order dated July 19, 2021, the Court rescinded the April 15, 2020, order
for the submission of documents to the Court, a copy of the the
modification to paper filing requirements is enclosed.
Your motion to waive your deficiencies of your supplemental brief or else
extend your time to file. Mailed to the Justices Chambers received in the
Clerk’s Office September 27, 2021, is herewith returned as there are no
provisions in the Court Rules for that request. ”
[Sic]
The letter from the Clerk’s Office gives the egregious distortion that it was not until
September 27, 2021 when - it received my courtesy copies addressed to the Justices that
it had a clue about my Motion requesting reasonable accommodation.

2

These are the facts:

I composed a Supplemental Brief in accordance with instructions of Lisa Nesbitt (Clerk’s
Office); it was not until Wednesday September 15, 2021, on the eve of Yom Kippur, on
the day I was mailing out my Supplemental Brief, that I was told by Donald Baker (on
the phone), that the Court had changed its rules ... Indeed, on September 15, 2021, in my
telephone conversation, with Donald Baker, I requested reasonable accommodation
explaining that I am only a pro se who is mentally disabled and about my religious
observance of the Jewish holidays and Sabbath. With my Supplemental Brief that I
mailed (addressed to the Office of the Clerk to the attention of Donald Baker), I also
included a handwritten note (for the Clerk) requesting reasonable accommodation.
According to USPS tracking (
https://tools.usps.com/go/TrackConfirmAction?tRef=fullpage&tLc=3&text28777=&tLab
els=9505513895871258301380%2CEI027086950US%2C&tABt=false ), my
supplemental brief (with the note) was received by the Court on Friday September 17,
2021 (“Your item was delivered at 11:07 am on September 17, 2021 in WASHINGTON,
DC 20543.”).

3

In addition, on Friday September 17, 2021,1 mailed a Motion addressed to the Clerk’s
Office (to the attention of Donald Baker) “requesting that the Court please provide
reasonable accommodation. ... requesting that the Court please waive the deficiencies of
my Supplemental Brief or else to please extend the time for me to submit a corrected
Supplemental Brief (Note: The conference is scheduled for 9/27/21)”. Indeed, on [or
around] Friday morning (September 17, 2021), I left a voicemail for Donald Baker
advising about my Motion for reasonable accommodation ... According to USPS
tracking
(https://tools.usps.com/go/TrackConfirmAction?tRef=fullpage&tLc=2&text28777=&tLa
bels=EI027086950US%2C ) my Motion for reasonable accommodation “was delivered
at 10:48 am on September 20, 2021 in WASHINGTON, DC 20543 to SUPREME
COURT 20543. The item was signed for by L JOHNSON”. This means that the Office of
the Clerk ignored my Motion for reasonable accommodation.

I subsequently left a voicemail for Donald Baker regarding my Supplemental Brief and
my Motion - requesting reasonable accommodation - on Sept 19 on or around 7:57 pm.
According to my voicemail, Donald Baker left a message for me on Tuesday Sept 21 on
or aroundl2:12pm (on the first day of Succos) that he received my Supplemental Brief
“today” [i.e. Tuesday Sept 21] and that as of September 1, 2021 the Court has rescinded
that order of allowing parties in paid cases to submit their briefs on 8 and half by 11
paper and that I will need to resubmit my supplemental brief in the booklet format;

4

however, Donald Baker said NOTHING about my motion for reasonable
accommodation. I subsequently left voicemails for Donald Baker regarding my Motion requesting reasonable accommodation - on Sept 22 on or around 11:24 pm, and on Sept
23 on or around 6:11 am; however, I received NO response until his letter dated
September 28, 2021 (i.e. after my courtesy copy mailed via USPS to each Justice) - after
the conference.

Furthermore, in my original Petition for Writ of Certiorari I had requested that my filing
fee be waived (and hence the exhibit regarding my income), but Lisa Nesbitt of the
Clerk’s Office made me ‘correct’ my original petition and remove the request and thus
the censored preface of my ‘corrected’ Petition for Writ of Certiorari. Indeed, if my fee
had been waived then it seems that my Supplemental brief would not have been
unreasonably rejected. In addition, the Office of the Clerk refused to post the Appendix
that I actually submitted - even though I offered to also provide an electronic copy.

On October 5, 2021, my Petition for Writ of Certiorari was denied, prior to receiving any
Corrective Action from the Court

Thus, I am hereby requesting the following corrective action:

5

(1) According to https://www.supremecourt.gov/ctrules/2019RulesoflheCourt.pdf the
word limit is 3,000 words for a Supplemental Brief and 3,000 words for a Petition for
Rehearing; thus I am requesting that for my Petition for Rehearing word limit be 6,000
words (Note: Donald Baker of the Clerk’s Office on or around September 15, 2021 (eve
of Yom Kippur) - even prior to my petition being distributed for conference - in refusing
to provide reasonable accommodation for my Supplemental Brief - said that I could
submit a petition for rehearing meaning that my petition for rehearing would serve as
both a Supplemental Brief and a Petition for Rehearing.).
(2) According to https://www.supremecourt.gov/ctrules/2019RulesoftheCourt.pdf “Any
petition for the rehearing of an order denying a petition for a writ of certiorari or
extraordinary writ shall be filed within 25 days after the date of the order of
denial”; thus, I am requesting 50 days after the date of the order of denial for me to
submit to my Petition for the Rehearing.
(3) I am requesting that I be allowed to submit my Petition for Rehearing on single sided
8 Vi x 11 paper.

Sincerely,
Robert Pilchman
October 6, 2021

